<html>
<title> - HEARING ON THE GOVERNMENT ACCOUNTABILITY OFFICE'S INVESTIGATION OF EPA'S EFFORTS TO PROTECT CHILDREN'S HEALTH</title>
<body><pre>[Senate Hearing 111-1231]
[From the U.S. Government Publishing Office]








                                                       S. Hrg. 111-1231

  HEARING ON THE GOVERNMENT ACCOUNTABILITY OFFICE'S INVESTIGATION OF 
               EPA'S EFFORTS TO PROTECT CHILDREN'S HEALTH

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 17, 2010

                               __________

  Printed for the use of the Committee on Environment and Public Works


  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 




       Available via the World Wide Web: http://www.gpo.gov/fdsys
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-634 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 17, 2010
                           OPENING STATEMENTS

Klobuchar, Hon. Amy, U.S. Senator from the State of Minnesota....     1
Nelson, Hon. Bill, U.S. Senator from the State of Florida........     3
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland    10
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................    11
Boxer, Hon. Barbara, U.S. Senator from the State of California, 
  prepared statement.............................................   120
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................   121
Baucus, Hon. Max, U.S. Senator from the State of Montana, 
  prepared statement.............................................   122

                               WITNESSES

Grevatt, Peter, Ph.D., Director, Office of Children's Health 
  Protection and Environmental Education, U.S. Environmental 
  Protection Agency..............................................    12
    Prepared statement...........................................    15
    Responses to additional questions from:
        Senator Boxer............................................    33
        Senator Vitter...........................................    39
Stephenson, John B., Director, Natural Resources and Environment, 
  U.S. Government Accountability Office..........................    47
    Prepared statement...........................................    49
    Responses to additional questions from:
        Senator Boxer............................................    61
        Senator Vitter...........................................    64
Solomon, Gina M., M.D., M.P.H., Senior Scientist, Natural 
  Resources Defense Council; Associate Director, Pediatric 
  Environmental Health Specialty Unit; Associate Clinical 
  Professor of Medicine, University of California, San Francisco.    72
    Prepared statement...........................................    74
    Responses to additional questions from Senator Boxer.........    83
    Response to an additional question from Senator Vitter.......    87
Bearer, Cynthia, M.D., Ph.D., FAAP, Division Chief, Neonatology, 
  University of Maryland School of Medicine; Children's 
  Environmental Health Network Board Chair.......................    90
    Prepared statement...........................................    92
    Responses to additional questions from Senator Boxer.........    98
    Response to an additional question from Senator Vitter.......   100
Schettler, Ted, M.D., M.P.H., Science Director, Science and 
  Environmental Health Network...................................   101
    Prepared statement...........................................   103
 
  HEARING ON THE GOVERNMENT ACCOUNTABILITY OFFICE'S INVESTIGATION OF 
               EPA'S EFFORTS TO PROTECT CHILDREN'S HEALTH

                              ----------                              


                       WEDNESDAY, MARCH 17, 2010

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full Committee met, pursuant to notice, at 10:30 a.m. 
in room 406, Dirksen Senate Office Building, Hon. Amy Klobuchar 
(acting Chairman of the full Committee) presiding.
    Present: Senators Klobuchar, Lautenberg, Cardin, and Udall.
    Also present: Senator Nelson.

           OPENING STATEMENT OF HON. AMY KLOBUCHAR, 
            U.S. SENATOR FROM THE STATE OF MINNESOTA

    Senator Klobuchar. I think we are ready to begin this 
hearing and convene this hearing.
    I want to thank everyone for waiting. Senator Boxer is on 
her way. We had votes, as you know, so we appreciate everyone's 
patience. I know that Senator Boxer will be joining us, and I 
know that Senator Nelson is also. We are very honored to have 
him here with us.
    I am the Chair of the Subcommittee on Children's Health, 
and as the mother of a 14-year-old, I am particularly 
interested in doing all that we can to protect and improve the 
health of our kids, especially when it comes to the 
environment. Every one of us has a stake in making sure kids 
grow up happy and healthy.
    This is important not only for the well-being of our kids 
but also for our country. I know parents have an increasingly 
difficult job in today's world. The economic pressures, the 
time demands, and the many outside influences that affect our 
kids, all of these and more make it an especially challenging 
time for America's families.
    Since I have entered the Senate I have made children's 
health one of my top priorities. Part of that was because I got 
involved when a little kid, a 4-year-old, swallowed a charm 
that he got with a pair of tennis shoes, and he ended up dying. 
He did not die from choking. He did not die from somehow that 
charm blocking his airways. He died because there was lead in 
that charm. When they tested it, it was 100 percent lead, and 
the lead in that charm went into his bloodstream, and he died 
over a period of days.
    When you hear stories like that you know that things are 
not all right for the kids in this country. And that is why I 
worked with Senator Pryor and others, and Senator Nelson on the 
Commerce Committee, to pass what the Wall Street Journal called 
the most sweeping consumer legislation in 16 years with the 
Children's Products Bill that we passed.
    I have also worked with Senator Crapo on our formaldehyde 
bill. We now have many, many authors, I think nearly 20 
authors, and it is heading to the floor. It went through the 
Committee. Again, formaldehyde in wood products is something 
that is not a partisan issue.
    We are also looking at the effects of outdoor pollutants. 
With nearly 9 million kids in the United States affected by 
asthma, it is the leading serious chronic illness among our 
children. Outdoor air pollution worsens existing asthma.
    Kids are already at greater risk from outdoor air pollution 
than healthy adults since kids have smaller airways than adults 
which are blocked easier, causing children to breathe more 
rapidly. According to the EPA, 66 percent of kids live in 
countries that exceed allowable levels of at least one of the 
principal air pollutants that cause or aggravate asthma. That 
not only affects our children's health, but it contributes to 
$3.2 billion in medical costs per year. And that was actually 
66 percent of kids that live in counties that exceed rates.
    We are also working in the Agriculture Committee to 
increase nutrition standards. That bill is actually being 
introduced today by Senator Lincoln and is something that will 
also be important as we go ahead for our children.
    But more work must be done. I joined with Senator Boxer in 
requesting the GAO report that we will be hearing about today 
because we wanted to learn more about what EPA is doing to 
focus efforts on children's environmental health. With the 
increased prevalence of asthma, obesity, and chemical toxins, 
the agency should be focused on what steps we can take to 
prevent the spread and incidence of these risks but also 
researching long-term strategies to help improve the overall 
health of our children.
    To develop an effective, focused strategy EPA must be 
working with other agencies, like the Department of Health and 
Human Services, to coordinate this effort. At one time, we had 
this coordination. In 1997 the President's Task Force on 
Children's Environmental Health and Safety Risks was authorized 
by Executive Order to provide this guidance and interagency 
coordination on children's environmental health. This task 
force ensured that agencies were working together on efforts to 
improve health and provided the type of commitment we need to 
ensure long-term goals to combat environmental risk.
    That is why I am proud to introduce legislation, along with 
Senator Boxer, that would finally reestablish this task force. 
As a former prosecutor I know that the first responsibility of 
government is to protect our citizens. So we must do everything 
we can to make sure our Government is doing all that it can to 
protect our youngest citizens from environmental harm.
    Ensuring that agencies are coordinating their efforts not 
only means that we can develop an effective strategy to improve 
the health of our kids, but it means that our Government can 
ensure that we are using taxpayer dollars effectively and not 
duplicating programs or working at cross purposes.
    I look forward to hearing from out panelists about the 
GAO's findings and efforts to address the environmental health 
issues that are affecting our children. They are the most 
vulnerable among us, and it is our responsibility to protect 
them.
    Our first witness, or more than that, expert, testifying 
today, I am pleased to see Senator Nelson here. He has been 
very active on this issue. I know that because I am on the 
Commerce Committee. And I thank him for coming today.
    Senator Nelson.

            OPENING STATEMENT OF HON. BILL NELSON, 
             U.S. SENATOR FROM THE STATE OF FLORIDA

    Senator Nelson. Thank you, Madam Chair.
    Madam Chair, may I just talk to you and submit my comments 
for the record along with a number of letters from the people 
in the area affected?
    Senator Klobuchar. Without objection. Your comments will be 
put in the record.
    Senator Nelson. Madam Chairman, we have an area west of 
West Palm Beach in Palm Beach County, Florida, called the 
Acreage. It is a residential area that has a rural character. 
There have been a number of children diagnosed with cancerous 
tumors, and all live within a radius of a couple of miles of 
each other.
    Naturally, the consternation of not knowing if this is a 
cancer cluster has disrupted the lives of thousands of people 
who live in this area because now, with the fact that it might 
be a cancer cluster, you know what has happened to the value of 
homes, and you know what has happened to the ability to sell 
your home if someone has to move, with the fact that some 
people are so fearful that this is a cancer cluster have moved 
out and are renting elsewhere in the city, in the county, while 
still maintaining the mortgage on their home in this particular 
area.
    This is an upscale area. It is on well water, and in this 
part of Florida these are shallow wells, and they are on septic 
tanks. So, the question is, what is the cause?
    So, a year ago, when this came to my attention, I went to 
the Florida Department of Health. A part of them is the County 
Health Department. They are the ones to try to determine if 
this is a health hazard. And for almost a year now they have 
been studying this, and they cannot come up with any 
conclusions.
    And so I am asking this Committee--and thank the Good Lord 
that you have got a Committee that is concerned that there 
might be these cancer clusters around the country--I am asking 
this Committee to bring the full weight of the expertise of the 
Federal Government to assist the first responders, which are 
the State Departments of Health, in determining if these are 
cancer clusters and if so, what we can do about it. And that 
means reaching out to the expertise of the EPA, the 
Environmental Protection Agency, as well as the Department of 
HHS and all of its myriad agencies including the CDC, the NCI, 
the NIH, et cetera.
    Now, that is what we need, because these people are in a 
terrible situation, fearful for their health, but at the same 
time, because of no conclusions, paying a terrible price in not 
being able to move on with their lives.
    In the testimony that I have submitted, and some of the 
letters that I have submitted, I have chronicled the specific 
cases of children that had these brain tumors. Now, is this 
something from the soil? Is this something from the shallow 
wells of the water? Is it particularly because children are the 
ones that get out and play in the dirt and crawl around on the 
floor and play in the puddles? We do not know. And we need to 
help bring about a resolution of information and conclusions.
    Thank you, Madam Chair.
    [The prepared statement of Senator Nelson follows:]

                    Statement of Hon. Bill Nelson, 
                 U.S. Senator from the State of Florida

    Chairman Boxer, Ranking Member Inhofe and members of the 
Committee, thank you for the opportunity to testify before you 
today. Chairman Boxer, thank you for your continued leadership 
and actions to protect our Nation's children.
    While the Committee examines the role of the Environmental 
Protection Agency and children's health I'd like to bring your 
attention to a community in Palm Beach, Florida, called the 
Acreage.
    This town of about 50,000 has been shaken by fears of a 
cancer cluster. In February a study by the State health 
department found higher than normal incidences of brain and 
central nervous system cancer in girls and young women. Some 
residents have lost a loved one, others aren't sure if their 
homes are safe to live in, and if they try to leave, they worry 
they won't even be able to sell their homes.
    Despite a year-long investigation, we still don't know 
what's causing these cancers, and people cannot get their lives 
back to normal until they have answers.
    Last summer I asked the EPA and Centers for Disease Control 
to get involved and help the State and local health department 
in its investigation.
    The Federal Government should take a larger and more 
proactive role in these complex and highly technical 
investigations because it has the expertise to lend a hand with 
detailed and sophisticated analysis.
    EPA's mission is to protect human health and the 
environment. In order to fulfill that role and to help 
communities like the Acreage that are desperate for answers, 
the first step would be bringing the EPA and various agencies 
within the Department of Health and Human Services together to 
lay out a plan for what a Federal role should be in the 
investigation of cancer clusters.
    I also believe the agencies, led by EPA and HHS, should 
prepare rapid response teams that will advise and assist not 
only the State and local health departments but help with 
communicating what's going on to the community. Here's why we 
need to act, and we need to do it immediately.
    Jenna McCann died just 2 months before her 5th birthday 
because of a rare, aggressive form of brain cancer. A few years 
later her family learned of two other young girls with the same 
type of rare brain cancer who also lived in the Acreage.
    Her mother, Kaye McCann, wrote to me, ``How can a cancer 
that is so rare . . . affect 3 children living within just a 
few miles of each other in just a few years' time? I don't know 
what the answer is, but I know this area needs help.''
    Another mother, Jennifer Dunsford, was in the hospital 
waiting room while her 5-year-old son had to undergo brain 
surgery, and she started talking with another family in the 
waiting room. As it turned out, they also live in the Acreage. 
Their daughter had just had surgery because she also had brain 
cancer.
    Later that same year, Jennifer found out there were two 
more children who lived in the Acreage who were diagnosed with 
brain cancer.
    She was the resident in the Acreage who initiated the 
request for a study and who has even gone on the Dr. Oz show to 
tell people about what's happening in Florida and the need for 
more testing and for immediate help to find answers.
    There are more stories like this, and with the consent of 
the Chairman I'd like to enter them into the hearing record.
    Hearing stories like these is heartbreaking, and we've got 
to do something about it. I look forward to working with you on 
this.

    [The referenced information follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
   
    
    Senator Klobuchar. Thank you very much, Senator Nelson. We 
really appreciate that, and hopefully we can get to the bottom 
of this.
    Senator Cardin.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Well, Senator Klobuchar, Chairman 
Klobuchar, thank you very much for conducting this hearing on 
the Government Accountability Office's investigation of EPA's 
effort to protect children's health.
    Let me use a little bit of my time in opening statement to 
introduce a witness that will be on our second panel, Dr. 
Cynthia Bearer. We welcome you to the Committee from the 
University of Maryland Medical Center in Baltimore City. She is 
the Cobey Professor of Neonatology and Chief of the University 
of Maryland Medical Center Hospital for Children Division of 
Neonatology.
    Dr. Bearer is here today on behalf of the Children's 
Environmental Health Network for which she serves as the Board 
Chairman. The Network is the national organization whose 
mission it is to protect children from environmental health 
hazards and to work to build a healthier environment for kids 
to grow in.
    We certainly welcome you here, and we look forward to your 
testimony. I apologize. I will be running in and out because of 
other duties today. But thank you for appearing before our 
Committee.
    Let me just point out generally, Madam Chair, if I might, 
the importance of this subject. We know that children are more 
vulnerable to the environmental risks. We know that their 
bodies cannot detoxify at the same efficiency as older bodies 
can. We also know, as Senator Nelson pointed out, children are 
closer to the ground. Therefore, they are crawling around and 
are more vulnerable to the environmental risk factors.
    We also know that they eat and breathe more per body weight 
than adults do. So, in 1993 the National Academy of Science 
came to the conclusion that children are not little adults and 
therefore are more vulnerable to these environmental risks.
    I was pleased in 1997 that the EPA established the Office 
of Children's Health as well as the advisory committee to 
implement and oversee a national plan to protect our children 
from environmental exposures. A major undertaking of the EPA is 
participation in the National Children's Study authorized by 
Congress in 2000. The National Children's Study examines the 
effects of environmental influences on the health of 100,000 
children across the United States, following them from before 
birth to age 21.
    Health disparities are also affected by environmental 
factors with environmental health risks affecting minority and 
low income children disproportionately because of the 
demographic trends in the United States, according to the 
Interagency Forum of Child and Family Statistics. To this end 
it is particularly important to conduct research on children 
that will include racial and ethnic majorities, minorities, 
excuse me.
    There is one finding, Madam Chair, that I know, that 
provoked, I think, this hearing, and that is EPA has not 
updated its National Agenda regarding protecting children's 
health in over 10 years and that the recent 2009 goals do not 
include the Office of Children's Health as a target area for 
improvement.
    This hearing is very important. Our children are our most 
precious assets. We say it over and over again; we want to do 
everything we can to protect them. They do not have the same 
advocacy as the adult community has. And yet, as Senator Nelson 
pointed out in his specific example, they are extremely 
vulnerable to environmental risk.
    The Environmental Protection Agency must have a focus on 
what we do to protect our children from these environmental 
risks. The study is an important part that they are 
participating with on other, with other agencies. It is also 
important that we update the strategies on a regular basis. I 
think this hearing is an appropriate oversight for our 
Committee, and I thank the Chair for conducting it.
    And with that I would yield back the balance of my time.
    Senator Klobuchar. Thank you very much, Senator Cardin.
    Senator Lautenberg.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thanks, Madam Chairman, for having this 
hearing.
    Each of us who has a grandchild is immediately an expert on 
children's health, and the concerns that we have for them rise 
to the top of our agenda. I am fortunate enough to have four 
kids and am grandfather of 11 between my wife and me. This 
subject is a crucial one for us.
    I see in my own family, I have a grandson who is 16 who has 
got asthma and a granddaughter who is 11 who has diabetes. We, 
in order to help them, I am determined, and I think we all are, 
to make sure that we do everything for grandchildren across our 
country.
    That is why in 1997 President Clinton issued an Executive 
Order to protect infants and children from environmental health 
risks, and the Administrator of the EPA created the Office of 
Children's Health. That office developed into a powerful force 
that consistently fought for the well-being of our Nation's 
children. The nature of children's health was a top priority of 
EPA research budgets and policies.
    The office also made sure that children's health was a 
priority factor when the agency created cancer guidelines, 
environmental toxin guidelines, in its data base on chemical 
risks.
    Unfortunately, the progress made to safeguard children's 
health ground to a halt during the Bush administration as 
today's report from the Government Accountability Office makes 
clear. The EPA seemed to develop collective amnesia, lost focus 
on children's health issues, and the Office of Children's 
Health withered on the vine.
    In fact, the Administrator of the EPA office showed such 
little interest in the office that it went without a permanent 
director for 6 years. And as today's GAO report concludes, the 
Office of Children's Health, and here I quote, declined in the 
absence of direct and meaningful support from the EPA's 
Administrator.
    The good news is that things have turned around with 
Administrator Lisa Jackson at the helm of EPA. She has 
recommitted the Agency to protecting children from 
environmental dangers, moved quickly to appoint Peter Grevatt--
we welcome him here--as the new Director of the Office of 
Children's Health, and made him a key advisor on her team.
    Soon after his appointment Director Grevatt issued a 
roadmap with five clear priorities to protect children's 
health. And I was pleased that he made the reform of toxics, 
the Toxic Substance Control Act, known as TSCA, a top priority. 
Right now TSCA is not up to the task of protecting our kids 
from toxic chemicals, and it has got to be overhauled so we can 
figure out what chemicals children are exposed to and what 
exactly we need to do to protect them.
    Children, as was said, are not simply small adults. They 
are extremely vulnerable to the acute dangers of toxic 
chemicals. And according to a report by the Safer Chemicals, 
Healthy Families Coalition as much as 5 percent of cancers, 10 
percent of neural behavioral disorders and 30 percent of asthma 
cases in children are associated with toxic chemicals.
    I do not know whether a report--the Op Ed piece by Nicholas 
Kristof, written in the New York Times, where he raised the 
question of toxics and autism. It got a lot of attention, and 
we are going to be focused in that area, thank goodness.
    So, we are here today because more work has to be done when 
it comes to children's health. Unfortunately, I, too, am called 
to other places. Madam Chairman, this is an important Committee 
and an important hearing, and I am sure that we will establish 
a good record from which we can work.
    Thank you very much. And thank you to the witnesses.
    Senator Klobuchar. Thank you very much, Senator.
    And now we are going to move to our first panel. If you 
could come forward, I will introduce you.
    OK, well thank you for being here today. We have two 
panelists for our first panel. The first is Dr. Peter Grevatt, 
who is the Director of the Office of Children's Health 
Protection with the EPA, and the second is John Stephenson, who 
is the Director of Natural Resources and Environment with the 
Government Accountability Office or, as we know them, the GAO.
    So, we will start with Director Grevatt.

    STATEMENT OF PETER GREVATT, PH.D., DIRECTOR, OFFICE OF 
CHILDREN'S HEALTH PROTECTION AND ENVIRONMENTAL EDUCATION, U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Grevatt. Good morning, Madam Chairman and members of 
the Committee.
    My name is Peter Grevatt, and I am the Director of the 
Office of Children's Health Protection and Environmental 
Education at the U.S. Environmental Protection Agency. Thank 
you for the opportunity to appear before this Committee to 
discuss EPA's efforts to improve children's health.
    Children face greater threats from environmental pollutants 
than adults due to differences in their physiology, activity 
patterns and development. And not all children are the same. We 
continue to see disparities in exposures and health outcomes 
among the poor, African American, Latino, Native American and 
other ethnic minorities.
    Children's health is a driving force behind Administrator 
Jackson's priorities. In February, in a memo to EPA's senior 
managers, she reaffirmed EPA's commitment to considering the 
health of pregnant women, infants and children in all human 
health related activities and to the use of EPA's policy on 
evaluating health risks to children and the best available 
research and data to guide our children's health protection 
efforts.
    In the memo Administrator Jackson describes EPA's 
children's health agenda and identifies my office, the Office 
of Children's Health Protection, as having the lead in ensuring 
that the agency is successful in its efforts to protect 
children's health.
    EPA agrees that the GAO report reflects the progress of the 
agency's children's health protection efforts, accurately 
portrays the agencies challenges in addressing children's 
environmental health, and sets forth sound recommendations on 
steps that could be taken to better incorporate protection of 
children's health as an integral part of EPA's everyday 
business.
    EPA is implementing a comprehensive strategy to ensure 
protection of children's environmental health which embodies 
the five key priorities I previously discussed for children's 
environmental health at EPA.
    EPA will use the best science to ensure that regulations 
provide for protection of children's environmental health by 
actively addressing the potential for unique childhood 
vulnerability and exposure. Our goal is to reduce negative 
environmental health impacts on children through rulemaking, 
policy, enforcement and research that focus on prenatal and 
childhood vulnerabilities.
    For example EPA is confronting the harmful effects of 
criteria air pollutants on the health of children. We have 
decided to reconsider the 2008 National Smog Standards to 
ensure that they are scientifically sound and protective of 
human health. We will bring the best science to bear in our 
decisions.
    The Children's Environmental Health Centers, established in 
1998 by EPA and the National Institute of Environmental Health 
Sciences, examined the interactions between key environmental 
exposures in a range of child health outcomes such as growth 
and development, asthma and autism, with the goals of 
preventing and reducing childhood diseases and translating the 
findings to the effected communities and the broader public.
    Assuring the safety of chemicals in our products and our 
environment is critical to ensure the health of children. EPA 
will establish standards, policies and guidance to help 
eliminate harmful prenatal and childhood exposures to 
pesticides and other toxic chemicals.
    And last year Administrator Jackson announced principles 
for modernizing the Toxic Substances Control Act, or TSCA. We 
are hopeful that TSCA will be updated by Congress so that we 
are better able to take action on chemicals that pose a 
concern, particularly those that affect children.
    Separately, we are shifting EPA's focus to address high 
concern chemicals and filling data gaps on widely produced 
chemicals. At the end of 2009 we released our first ever 
Chemical Action Plans for four groups of substances, and more 
plans are in the pipelines for 2010.
    EPA also recognizes that children may be more vulnerable to 
pesticide exposure. We are planning to further strengthen 
assessment of pesticide health risks. By modifying our risk 
assessment approach we hope to continue to minimize the adverse 
health consequences of pesticide exposures. We are also working 
closely with partners such as the Department of Housing and 
Urban Development and the Centers for Disease Control and 
Protection--and Prevention, excuse me--to protect children from 
pesticides in residences and in schools.
    We will coordinate national and international community 
based programs to eliminate threats to children's health. EPA 
is collaborating with the Department of Health and Human 
Services, Department of Education and a diverse group of 
stakeholders through our Children's Health Protection Advisory 
Committee to provide tools to communities to build a new 
generation of healthy green schools and help ensure that 
existing schools are in good condition and are properly 
maintained.
    EPA, HHS and the Department of Housing and Urban 
Development are also collaborating to respond to the Surgeon 
General's call to action on healthy homes by taking advantages 
of opportunities to leverage Federal resources to provide 
States, tribes and local communities with the necessary tools 
to help improve home environments, particularly in underserved 
communities.
    EPA and HHS are also joining with other Federal departments 
and agencies to work toward reestablishing the President's Task 
Force on Environmental Health Risks and Safety Risks to 
Children. And with this group we will collaborate to address 
the most critical children's environmental health issues facing 
the Nation.
    EPA is also working with other Federal agencies to address 
environmental factors that contribute to the pervasive problem 
of obesity in children through our participation in the Task 
Force on Childhood Obesity.
    As part of our efforts in all of these areas, we will 
utilize our Children's Health Protection Advisory Committee to 
help ensure that we are developing effective strategies to 
address the most significant threats to children's 
environmental health.
    Thank you, Chairman Boxer, and Chairman Klobuchar and 
Members of this Committee, for the opportunity to talk to you 
today. As evident by our strategy and actions Administrator 
Jackson and I share your commitment to children's environmental 
health, and we appreciate your ongoing interest in our efforts.
    Thank you again for inviting me to give testimony, and I 
look forward to answering any questions you may have.
    [The prepared statement of Mr. Grevatt follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
        Senator Klobuchar. Thank you, Dr. Grevatt.
    Mr. Stephenson.

 STATEMENT OF JOHN B. STEPHENSON, DIRECTOR, NATURAL RESOURCES 
     AND ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Stephenson. Thank you, Madam Chairman.
    I am pleased to be here today to discuss EPA's and the 
Federal Government's progress over the last 10-plus years in 
addressing children's environmental health issues. My testimony 
summarizes our full report to the Committee on these issues 
being released today.
    The scientific evidence about children's exposure to 
dangerous chemicals and the health effects of these chemicals 
continues to mount. For example 66 percent of children live in 
counties that exceed allowable levels of at least one of the 
principal air pollutants that cause aggravated asthma--a 
significant problem for children, one that costs $3.2 billion 
in medical costs annually.
    EPA and the Federal Government took several bold steps in 
the late 1990s to make children's environmental health a 
priority. In 1996 EPA issued a National Agenda to protect 
children's health from environmental threats. In April 1997 the 
President signed Executive Order 13045 that mandated a 
concerted Federal effort to address children's environmental 
health and safety risks and established an Interagency Task 
Force to recommend strategies to the President for protecting 
children.
    Also in 1997 EPA created the Office of Children's Health 
Protection and formed the Children's Health Protection Advisory 
Committee. However, this early momentum waned through the last 
decade. Our report, while acknowledging some successes such as 
the increased margins of safety for pesticides and the creation 
of the National Children's Study, concludes that EPA's past 
efforts to institutionalize children's health through its 
National Agenda and Strategic Plan have not been sustained.
    But EPA has not effectively engaged its Office of 
Children's Health or proactively used its Children's Health 
Advisory Committee, and the agency's Interagency Task Force, 
which is largely responsible for the Federal Government's early 
momentum on children's health issues, was allowed to expire in 
2005.
    We are encouraged that Administrator Jackson is attempting 
to refocus attention on children's environmental health issues 
and believe that the strategy just discussed by Dr. Grevatt is 
a step in the right direction. However, we believe that to 
ensure progress EPA needs to implement changes in concrete and 
actionable ways to institutionalize its approach to children's 
environmental health issues.
    To this end our report makes specific recommendations to 
EPA to include: No. 1, updating and reissuing a National Agenda 
to articulate current environmental health priorities and 
emerging issues; No. 2, identifying and tracking rulemaking and 
other actions to ensure that children's health issues are fully 
considered; No. 3, ensuring that each new Strategic Plan 
expressly articulates children specific goals, objectives and 
targets; No. 4, reevaluating the mission of the Office of 
Children's Health and ensuring that it has the resources and 
organizational placement to carry out its mission; and No. 5, 
more proactively using the Children's Health Protection 
Advisory Committee.
    We are pleased that EPA agreed with our recommendations but 
believe they must be successfully implemented if EPA is to 
incorporate protection of children's health as an integral part 
of its everyday business.
    Finally, Madam Chairman, notwithstanding the actions that 
EPA can take on its own, leadership from outside the agency and 
across the Government will also be needed to protect children 
from current and emerging environmental threats.
    The President's Task Force on Children's Environmental 
Health that expired in 2005 was comprised of nine cabinet 
officials and seven White House office directors and was co-
chaired by the Administrator of EPA and the Secretary of Health 
and Human Services. We believe that this task force provided 
the high level infrastructure needed to coordinate Federal 
research and strategies for addressing children's environmental 
health concerns through nationwide initiatives like the 
National Children's Study, a study that is examining the role 
of environmental factors on health and diseases in children 
from pre-birth to age 21.
    The Task Force documented this and other accomplishments 
and reported to the President, and in our review significantly 
enhanced the Nation's ability to understand, analyze and 
respond to environmental health risks to children. Nearly every 
children's health expert we talked to told us that the Task 
Force could help the Federal Government respond to national 
health and safety concerns such as recalls of toys and other 
children's products.
    Our report recommends that the Task Force be reestablished. 
We are pleased that you are introducing legislation to do so, 
and we see this as a critical step for the Government to regain 
its momentum in comprehensively addressing children's health 
issues.
    That concludes a summary of my statement, and I, too, will 
be happy to answer questions.
    [The prepared statement of Mr. Stephenson follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
       
    Senator Klobuchar. Thank you very much, Mr. Stephenson. 
Thank you for acknowledging the legislation that we are 
introducing. What do you see are some of the advantages of 
going beyond EPA and coordinating with other agencies as we 
want to do with this legislation?
    Mr. Stephenson. Well, at least those 10 agencies that were 
on the Task Force certainly have roles in protecting children. 
The Consumer Product Safety Commission would be instrumental in 
things such as the toy recall. It could benefit from EPA's 
scientific assessments of chemicals that are typically used in 
toys. So, it just created leadership across the Government and 
provided great momentum for addressing this issue that has kind 
of waned since it expired in 2005.
    Senator Klobuchar. I was thinking about that when we had 
the latest toy issue with the cadmium in the jewelry, and how, 
when we had a previous hearing I asked about that, and the 
studies that were going on at EPA and just having that kind of 
coordination. It might not have been as much of a surprise as 
it appeared to be when suddenly there was this new problem that 
none of us had foreseen because we were so focused on the lead.
    Mr. Stephenson. Yes, too, we think that the regular reports 
to the President on this subject help keep the public informed 
about what the Government is doing to protect children as well.
    Senator Klobuchar. I would just think that coordination 
might result in better legislation as you look at things, not 
just as a specific thing that comes to one agency, but overall.
    How can we create accountability and ensure that the EPA is 
following through on its stated goal to make children a 
priority at the agency since you guys are all about 
accountability?
    Mr. Stephenson. Well, as Senator Lautenberg mentioned the 
National Agenda that guides EPA's efforts in this area has not 
be updated for 10 years. I think EPA is getting there, but it 
is not documented yet.
    We think that such a document with clear research 
priorities, chemical risk assessment priorities and the like 
are critical to guide the agency, and we think that informs the 
public about what EPA is doing to protect children as well. And 
it sends a message across the program offices and regions at 
EPA as well to the fact that this is an important agenda of the 
Administrator. We think that the regular reports that they 
provided to the Administrator were also instrumental in keeping 
the momentum going.
    There are many things that we think need to be done. In the 
rulemaking process, we recommended better tracking mechanisms 
to show how children's health issues are considered in 
rulemaking and standard setting and other actions that EPA 
takes. So, there is a whole variety of things specified in our 
report that we think will go a long way toward 
institutionalizing the addressing of children's health issues 
at the agency.
    Senator Klobuchar. Thank you.
    Mr. Grevatt, what will the agency do to address the 
findings that are in the GAO report?
    Mr. Grevatt. We have already taken steps to begin 
addressing a number of the findings, and I appreciate very 
much--as we indicated in our comments to your draft report--
that the recommendations are sound. And so, for example, as I 
mentioned in my testimony, we are already working with other 
Federal agencies toward the reestablishment of the Interagency 
Task Force on Children's Environmental Health and Safety, which 
we see as a critical step to helping the Nation to be able to 
address these key issues.
    The agency has improved its tracking system for regulations 
to help--to better capture children's health issues, and I have 
significantly increased the focus of the office on rules and 
regulations that are being developed by the agency through my 
interaction with the Administrator and also with the senior 
career folks across the agency. I think we have an opportunity 
to increase the sort of reporting that you were talking about, 
the critical nature of that.
    We have--I have requested and have received an increase in 
resources to my office this year and in 2010 of five full-time 
equivalent employees being increased in the office, and then 
the President's budget for 2011 includes a request for an 
additional 13 employees between my office and the regions to 
focus on healthy school environments.
    Senator Klobuchar. And when you talk about healthy school 
environments, what do you mean by that?
    Mr. Grevatt. I mean to address the issues in schools that 
we think that can both impact children's health in those 
schools as well as children's academic performance in those 
schools. So, things like making sure the schools are dealing 
with moisture problems to prevent mold in the school 
environments to help reduce the possibility of children 
experiencing attacks in the school environment, making sure 
that when pesticides and cleaning products are used in school 
they are used safely so as to not inadvertently affect the 
children who are in those school environments, making sure 
there is adequate air exchange so that kids can be alert in 
their work and also protected from any kind of allergens other 
than mold that might cause asthma attacks in those school 
environments. So, those kinds of issues are all key to that 
work.
    Senator Klobuchar. OK, one specific question, and then I 
will turn it over to my colleague, Senator Udall, who has 
arrived.
    Dr. Grevatt, in your testimony you mentioned that EPA 
issued the Lead Renovation Repair and Painting Rule, which aims 
to provide broad protections against inadvertent lead poisoning 
by requiring contractors and construction professionals to be 
trained, certified and to use lead safe work practices during 
renovation, repair and painting in pre-1978 housing and 
childcare centers.
    There is broad agreement that these increased protections 
for children are necessary, but there is also some recent 
concern among consumer health organizations and people who do 
this type of work that there are not yet enough certified 
contractors to meet EPA's requirement when this rule could take 
effect.
    I understand that EPA has less than 200 accredited trainers 
and less than 14,000 certified renovators nationwide. We are 
not quite at the 200,000 that we need to make this work. I did 
write a letter today to Administrator Jackson expressing 
concerns about implementing this rule next month, that we 
simply might not be ready yet, and it could not have the 
desired effect that we want, to reduce the lead and at the same 
time, because of the lack of the contractors--the trained 
contractors--could hinder the home energy efficiency upgrades.
    Do you know what is EPA's position is on this? That was a 
long question.
    Mr. Grevatt. It was a long question but a very important 
one. It is a tremendously important rule implementation; 
effecting implementation of that rule is tremendously important 
to protect children's health in home environments and other 
environments where they spend time. The Administrator is well 
aware of this issue, and I was speaking with the Deputy 
Administrator about it yesterday, looking toward increasing 
opportunities and awareness of the contractors of the need to 
be trained for implementation of the rule.
    And I think there are a number of factors at play here. We 
think that we have enough trainers now to reach out to a large 
group of contractors across the country, but we think there is 
still an issue with increasing the awareness among the 
contracting community. It requires them to spend roughly a day 
in a training course with 2 hours of hands-on training, and we 
are not getting the response from the contractor community that 
we need as yet.
    So, we are talking about specific ways of outreach in the 
near term, the very near term, to try to increase participation 
in the training and get those numbers up where they need to be.
    Senator Klobuchar. Yes, and I would suggest, just because 
we are working so hard with our stimulus and jobs package that, 
you know, perhaps some delay will be necessary with the 
immediate outreach and a different date because I am just 
concerned about these numbers so far. But that is something 
that I know you will be discussing at the EPA.
    Mr. Grevatt. That is right. Thank you.
    Senator Klobuchar. OK. Thank you.
    Senator Udall, I see you are wearing green. I forgot to.
    Senator Udall. Thank you, Madam Chair. I am wearing green. 
Somehow, I managed to remember this morning.
    Senator Klobuchar. You are very organized. You must be part 
of a coordinated green interagency task force.
    Senator Udall. No, I happened to see Senator Leahy last 
night in black tie on the floor, and I said, what is going on 
there, and they said he is going to the dinner.
    Senator Klobuchar. Oh, and then that made you remember. You 
did good. It is sort of an interagency theme. OK. There you go.
    [Laugher.]
    Senator Udall. Anyway, Madam Chair, thank you very much, 
and thank you for focusing on this issue. I know you have a 
real passion for children's issues and children's health, and I 
look forward to really working with you on this Committee to 
achieve some good goals.
    This question is for both Mr. Stephenson and Mr. Grevatt. 
The EPA's National Agenda to protect children's health from 
environmental threats came out in 1996. That same year Congress 
reauthorized the Safe Water Drinking Act with a focus on cost-
benefit analysis. Since 1996 the EPA has issued few new 
drinking water standards.
    Under the previous Administration EPA decided not to 
regulate perchlorate, an ingredient for explosives that harms 
the thyroids of pregnant women. What are the challenges of 
incorporating the special health effects of children in the 
Safe Water Drinking Act? Either one of you, jump in there.
    Mr. Stephenson. I will defer to Dr. Grevatt on that.
    Mr. Grevatt. OK. Thank you very much. A very important 
issue, perchlorate in particular, but more broadly, addressing 
contaminants in drinking water. And we are--I think you are 
aware that within the last year EPA reevaluated the health 
risks related to perchlorate and issued an updated risk 
assessment for perchlorate for public review. And at this point 
the Administrator is considering what decision to make 
specifically with regard to possibly regulating perchlorate as 
a contaminant in drinking water.
    But more broadly the Safe Drinking Water Act, in addition 
to requiring a cost-benefit analysis, does require 
consideration of vulnerable populations for drinking water 
contaminants, including children. And we will be working very 
closely with the Drinking Water Office as well as other offices 
across the agency and their own regulatory actions to make sure 
that children's health vulnerabilities are considered through 
any rulemaking activities that will address drinking water 
contaminants.
    Mr. Stephenson. The only thing I would add is that we do 
have some ongoing work on perchlorate right now as an emerging 
contaminant in drinking water, and I believe this Committee is 
one of the requesters for that report, which will be out later 
this year. It does not single out children's health issues, but 
it will talk about the problems that EPA has and the length of 
time that it takes to do chemical risk assessments in general. 
Perchlorate, for example, has been studied for over a decade 
now. And we may have some specific recommendations on the issue 
of chemical risk assessment coming out of that report.
    Senator Udall. Thank you.
    Mr. Stephenson, you recently testified at our Committee 
regarding efforts to reform the Toxic Substances Control Act, 
which is clearly out of date, at best, and possibly fatally 
flawed. The question for both of you is which of the proposed 
reforms to this law have the most potential to provide an extra 
buffer zone of protection for children: biomonitoring, risk 
screening of chemicals, increased data for producers, or 
increased authority to restrict chemicals? Or does this require 
a comprehensive approach?
    Mr. Stephenson. All of the above, a comprehensive approach. 
The biomonitoring data will tell you what chemical exists in 
the blood, but it does not tell you the causes or the likely 
health effects of that data. But biomonitoring is an important 
element to help prioritize which risk assessments are needed. 
We have not looked at all the various proposals to amend TSCA 
but have been studying the issue for 5 or 6 years and are 
definitely in support of amending TSCA and giving it more teeth 
and strength for the Agency and requiring more by the chemical 
industry in regards to proving that its chemicals are safe 
before they are introduced into commerce.
    Mr. Grevatt. And thank you. If I may, I agree with Mr. 
Stephenson's comments on that. I think any one of the factors 
that you mentioned there would help, but without the full suite 
of those I think it would be very difficult for us to move 
forward in the way that we need to on TSCA implementation. And 
the Administrator, Administrator Jackson, issued recently her 
key themes that she thought were important in TSCA reform, and 
we are very supportive of moving forward in this area.
    Senator Udall. Thank you.
    There is a continuing push by business and industrial 
interests to include more and more cost-benefit analysis in 
environmental regulation. How is that effort compatible with 
children's environmental health, which may not be as easily 
quantified?
    Mr. Grevatt. I am sorry, but I am not sure if that is a 
question for me or for both of us.
    Senator Udall. Jump in if you both want. You have, I am 
running out of time, so----
    Mr. Grevatt. OK. Thank you very much. I think that it is 
important for us to focus on cost-benefit analysis related to 
children's environmental health, but the emphasis I would put 
there is doing a better job of understanding the costs 
associated with childhood impacts and the benefits associated 
with taking actions to prevent those impacts. So in particular 
I think there is more work that we could be doing there to 
better capture the benefits of steps that we take to protect 
kids from environmental contaminants.
    Mr. Stephenson. I think this is a place where you can use 
the Children's Health Advisory Committee as well. There are 
several new members, including a new Chairperson, resulting in 
about half of the Committee being new. They are convening the 
new Committee later this month. EPA can ask them to use their 
expertise, which includes industry representation, academic 
representation, and special interests to address questions 
regarding the compatibility of cost-benefit analysis with 
environmental regulations related to children's health. That is 
why they are there. So, I think they can help EPA better 
determine how to consider children's health issues in that 
manner.
    Senator Udall. I thank both of the witness and the Chair. 
Thank you for your courtesy for letting me run over a little 
bit. I am sorry I cannot stay for the whole hearing. I think 
this is a very, very important subject.
    Senator Klobuchar. Thank you very much, Senator Udall.
    One last question, Dr. Grevatt. As you know there is 
finally some movement afoot to do something on childhood 
obesity. It has been dormant. And as our recesses have gotten 
shorter, and our attention, I think, has gotten shorter, our 
kids' waistlines have gotten larger. And we just have not been 
devoting the attention we need to it. As you know a third of 
kids that now graduate from high school are obese or overweight 
and a fourth are obese going into elementary school.
    The Child Nutrition Act, as I mentioned, is being 
introduced today. That is one thing. And as we go into some of 
the education work that will be done this summer I think we 
should be looking at recess and gym time as a piece of that. We 
have our Complete Streets Bill here where we are trying to move 
on community planning and things that more is done to 
incentivize and encourage walking. But I just wondered what EPA 
is doing as part of this effort.
    I just see it as huge money for taxpayers. You know, we are 
financing--for very good reasons and necessary reasons--not 
just school lunches and breakfasts but also Pre-K, the 
Childcare Program, 3 million of these kids are getting food 
every day. And one of the most amazing things to me, I 
introduced a bill on this this week with Senator Harkin; it is 
now being included in the Child Nutrition Standard.
    I just want to make sure you know this. They are really not 
just standards at all for these childcare meals. And yet we are 
paying for it, the taxpayers are. One out of three kids, a 
recent study showed that kids in these childcare programs do 
not even have a fruit or a vegetable all day and that the most 
common vegetable is french fries. And if you think about what 
we are giving these kids, it is just not right. And so this is 
something that I really believe has to be changed.
    I have seen it in my daughter's own schools. The difference 
between being in a sort of a different demographic with parents 
with more money, these kids are bringing carrots and celery in 
their lunches, and then at the other school she was in for 3 
years with 90 percent free and reduced lunch, these kids are, 
you know, choosing the Twinkie line and the french fries 
instead of the yogurt in these a la cart lines. And it seems to 
me the kids we are hurting most are the kids who are the most 
vulnerable and who need the most help during the school day. 
And it has to change.
    So, I just wondered what EPA, what you are doing in this 
regard, as part of this big focus of the First Lady's, which I 
truly appreciate.
    Mr. Grevatt. Senator, thank you very much, and I appreciate 
your leadership on this critical issue. And childhood obesity 
certainly has the potential to lead to the current generation 
of children being the first generation in American history who 
may have a shorter life expectancy than their parents. So, this 
is a critical issue for us to address.
    As a part of the Interagency Task Force on Childhood 
Obesity, EPA is an active participant. All the key players are 
there focusing on physical activity, focusing on the built 
environment, focusing on food availability and food nutrition 
guidelines, school lunches, and a variety of other issues that 
intersect with obesity in some ways that may not be obvious, 
including the intersection between childhood asthma and 
childhood obesity and the intersection between some chemical 
factors that may lead to infant obesity.
    So, EPA is an active player in this area. And I think you 
are aware that the President's memorandum on childhood obesity 
that established the Task Force gave us a 90-day timeframe to 
produce a report, a comprehensive report from across the 
Federal Government, on key steps that will be taken to address 
childhood obesity and eliminate childhood obesity within a 
generation. EPA is an active participant in that effort, and we 
will remain so.
    Senator Klobuchar. OK. Very good.
    Well, thank you very much. This has been informative. I 
especially liked the question part. I mean, the testimony was 
not bad, but you know.
    [Laughter.]
    Senator Klobuchar. I think we got some very useful 
information on the focus here, and I thank both of you. And now 
we will bring up the second panel. Thank you.
    Very good. We are pleased to have the second panel here. 
Our first witness will be Gina Solomon, a doctor who is the 
Associate Director of the University of California in San 
Francisco Pediatric Environmental Health Specialty Unit and the 
Center for Occupational and Environmental Health at the 
University of California at Berkeley. Second, we have Cynthia 
Bearer, also a doctor, who is the Chief of Neonatology at the 
University of Maryland School of Medicine. And then, finally, 
we have Dr. Ted Schettler, who is the Science Director for the 
Science and Environmental Health Network. Thank you all for 
being here.
    Dr. Solomon.

 STATEMENT OF GINA M. SOLOMON, M.D., M.P.H., SENIOR SCIENTIST, 
    NATURAL RESOURCES DEFENSE COUNCIL; ASSOCIATE DIRECTOR, 
   PEDIATRIC ENVIRONMENTAL HEALTH SPECIALTY UNIT; ASSOCIATE 
 CLINICAL PROFESSOR OF MEDICINE, UNIVERSITY OF CALIFORNIA, SAN 
                           FRANCISCO

    Dr. Solomon. Good morning, Madam Chair and members of the 
Committee.
    [Laughter.]
    Senator Klobuchar. They come and go. We have actually had 
very good attendance. I am excited.
    Dr. Solomon. I think that it is a great testament to this 
topic, and I am very glad to be here to testify today.
    I am a physician. I am also a Senior Scientist at the 
Natural Resources Defense Council, an Associate Clinical 
Professor of Medicine at UCSF, and I do work with the UCSF 
Pediatric Environmental Health Specialty Unit.
    One of the most frequent questions that I hear from my 
patients is: What can I do to protect myself and my family from 
chemical contaminants in our air, water and food? And I always 
find it difficult to answer that question because most hazards 
to children and families are not things that individuals can 
really protect themselves from, even with advice from their 
physician. Really it is the responsibility of Government 
agencies such as the EPA to ensure that our air and our water 
are safe for pregnant women and children.
    Decades of scientific evidence have accumulated 
demonstrating that children are more susceptible to 
contaminants in their environment. And in the 1990s the 
President and the EPA recognized that evidence and took 
important actions including Executive Order 13045, which we 
have heard about, the National Agenda to Protect Children's 
Health, and the creation of the Office of Children's Health 
Protection.
    Congress recognized the overwhelming evidence on children's 
susceptibility when it passed child protective language in the 
Food Quality Protection Act. And for the first time EPA was 
actually required to incorporate an additional 10-fold margin 
of safety to protect children from pesticide residues on food 
and in particular was required to do that if there were data 
gaps.
    So, this approach would seem to be a model for how to 
protect children. But in the last 14 years since then a couple 
of problems have become apparent. One of those is that the law 
applied only to pesticides, and to this day there are no legal 
requirements that EPA actually protect children's health from 
other industrial chemicals including chemicals that are known 
to disproportionately affect fetuses and children such as 
bisphenol A, phthalates, brominated flame retardants, and even 
arsenic.
    And the second problem is that EPA failed to honor even the 
directive of the Food Quality Protection Act. I was on an NAS 
committee which reported in 2006 on EPA pesticide assessments. 
They looked at 59 pesticides with assessments posted on EPA's 
Web site and EPA failed to apply the child protective factor 
for 48 of the 59 and only applied the full 10-fold factor to 
five chemicals despite the presence of widespread data gaps on 
many of these chemicals.
    In more recent years there have been problems at EPA with 
their approach to protecting children from carcinogens, and 
that is diametrically different to the situation in California 
where California considers children to be more sensitive to all 
carcinogens unless shown otherwise. Instead EPA currently 
limits child protective considerations to chemicals with a 
mutagenic mode of action, and in their framework document sets 
such a high standard of proof for mutagenic mode of action that 
it is basically unachievable for most carcinogens, and the net 
result is the child protective factor is not likely to apply to 
the vast majority of cancer causing substances. I am encouraged 
to hear that EPA may revisit this policy because it clearly 
needs to be changed.
    The biggest threat to children's health, however, in my 
opinion, may not be from the chemicals we already know about, 
the carcinogens we already know about, but from what we do not 
know because we are dealing with the unfortunate reality that 
most of the chemicals in our air and our water and even our 
children's toys, as you well know, have not really been tested 
or have not been tested at all for their toxicity.
    So I am not just talking here about testing for effects on 
infant development but in fact for all kinds of health effects: 
genetic damage, neurologic damage, hormonal effects, and 
allergic reactions.
    Basic safety assessments of all chemicals, not just 
pesticides, are needed in order to protect children. Only with 
broader chemical policy reform will parents be able to sleep 
soundly at night knowing that their children are safe.
    Thank you very much.
    [The prepared statement of Dr. Solomon follows:]
    
    
      [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
   
    Senator Klobuchar. Thank you, Dr. Solomon.
    Dr. Bearer.

STATEMENT OF CYNTHIA BEARER, M.D., PH.D., FAAP, DIVISION CHIEF, 
    NEONATOLOGY, UNIVERSITY OF MARYLAND SCHOOL OF MEDICINE; 
      CHILDREN'S ENVIRONMENTAL HEALTH NETWORK BOARD CHAIR

    Dr. Bearer. Thank you, Senator Klobuchar.
    I am a practicing neonatologist, which means that I take 
care of the sickest of the babies, the newborn babies. I am 
also a wife and mother, and my son, Matthew, is in the audience 
today.
    Senator Klobuchar. Welcome, Matthew. Where are you? I can 
tell you want me to call you out. You are lucky I did not make 
you stand.
    [Laughter.]
    Dr. Bearer. I am currently Professor and Division Chief of 
Neonatology at the University of Maryland, and I am here today, 
though, as the Chair of the Board of the Children's 
Environmental Health Network.
    The Network commends Senators Boxer and Inhofe for holding 
this hearing and to you for running it today and for their 
ongoing interest in environmental risks to children.
    I ask that my full statement be submitted for the record.
    The Network's mission is to promote a healthy environment 
and to protect the fetus and child from environmental health 
hazards. I urge the Committee to embrace its role in ensuring 
that all children grow up in healthy environments. I will 
discuss three overarching tenets.
    My first tenet is that the basic scientific facts of 
pediatric environmental health need to be incorporated into the 
policies and programs in this Committee's jurisdiction. 
Children, as we heard this morning, are not just little adults. 
They have unique vulnerabilities and susceptibilities. Because 
their systems are developing an exposure that causes little or 
no damage to adults may lead to irreversible damage to children 
and the adults they become.
    Children are exposed every day to a mix of chemicals, most 
of them untested for their effects on developing systems, as 
Dr. Solomon just noted. Policymakers could--and must--do a 
better job of assessing the role that environmental toxicants 
have on affecting the current and future health of developing 
human beings. The predominant and worrisome assumption is that 
potential hazards are innocent until proven guilty.
    One example is bisphenol A, or BPA, which is widely used in 
consumer products. Only recently have scientific studies shown 
that BPA causes harm. These studies have come long after 
massive population exposure has already occurred, with more 
than 90 percent of our citizens having BPA in their bodies. As 
a result of these reports BPA is being phased out of products 
used in the neonatal intensive care unit at the University of 
Maryland Hospital for Children.
    BPA is just one chemical that is ubiquitous in our 
environment and in our bodies. Parents understandably ask, how 
did we allow these substances to get into our children's bodies 
when we know so little about them? I do not know how to answer 
them.
    Most industrial chemicals are regulated through the Toxic 
Substance Control Act, or TSCA, which was enacted in 1976. 
However, EPA comprehensively regulates very few chemicals under 
TSCA. We need to protect the health of children through our 
chemical regulatory decisions.
    My second tenet is that children's health and healthy 
children must be an ongoing priority for this and every 
Administration. A series of forward looking policies were 
adopted in the 1990s. Over time their original successes have 
stalled. Previously, leadership of an Interagency Task Force by 
the EPA Administrator and the Secretary of DHHS galvanized 
efforts across the Government. We need such a catalyst again in 
order to regain momentum.
    The Network believes that key components of the 1997 
Executive Order on Children's Environmental Health, such as the 
Interagency Task Force that it created, should be put into 
statute. Such legislation must also ensure that other key 
agencies handling childcare and related issues, most notably 
the Department of Education, are actively engaged.
    I want to highlight the importance of the EPA's Office of 
Children's Health Protection in this process. The Network feels 
that it must have a robust presence within EPA in steering 
policy and science initiatives for the good of protecting 
children. Their advisory committee, the CHPAC, plays a critical 
role in providing advice and feedback to the EPA.
    My third tenet is that protection of children's 
environmental health must occur indoors. One focus on interior 
environments such as homes, childcare centers and schools is 
necessary. For example little is known about the environmental 
health status of our childcare centers where 60 percent of 
children from 1 month to 5 years of age spend more than 40 
hours per week. Most people do not know that there is no agency 
authorized to intervene to protect children from environmental 
hazards in daycares, pre-schools or schools.
    The Occupational Safety and Health Administration does not 
protect pre-school or school children. Thus every day we 
require or children to spend hours in environments that are not 
required to be healthy and where they and their parents have no 
options, alternatives or recourse.
    The Network also commends the EPA for its existing healthy 
school activities. We are especially supportive of the proposed 
Clean, Green and Healthy Schools Initiative. If we work to 
ensure that the many environments that make up our children's 
world are healthy and promote well-being we will improve the 
health of our children and the adults they will become.
    Thank you for the opportunity to testify. I would be happy 
to answer any questions.
    [The prepared statement of Dr. Bearer follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
        
    Senator Klobuchar. Thank you very much, Dr. Bearer.
    Dr. Schettler.

  STATEMENT OF TED SCHETTLER, M.D., M.P.H., SCIENCE DIRECTOR, 
            SCIENCE AND ENVIRONMENTAL HEALTH NETWORK

    Dr. Schettler. Thank you very much, Madam Chair, and thank 
you for the opportunity to testify here today.
    I am Ted Schettler, and I am the Science Director of the 
Science and Environmental Health Network. I am a physician, and 
I also have training in public health and environmental 
medicine.
    We have heard from a number of people today that developing 
children are uniquely vulnerable to environmental exposures. I 
would like to add to that that early life exposures can also 
increase the risk of chronic degenerative diseases in adulthood 
so that while we are protecting our children, we are also 
lowering the risk of disease later in life.
    We have also heard that during the 1990s it appeared that 
EPA was taking steps to address many of the unique aspects of 
children's environmental health, but since then some of these 
efforts have fallen short. I would like to just add two 
examples from my own experience to illustrate this.
    The first has to do with the potential for some commonly 
encountered chemicals to disrupt the function of hormones and 
other chemical messengers that are important during child 
development. These chemicals are called endocrine disrupters.
    During the 1980s and 1990s it became apparent that 
reproduction and development of many species of wildlife were 
being affected by exposures to these chemicals, and laboratory 
findings confirmed these outcomes. Many scientists then began 
to wonder whether the increasing incidence of cancer of the 
testes, prostate, breast, birth defects of the male 
reproductive tract, lower sperm counts, behavioral disorders 
and other abnormalities in humans might be explained in part by 
similar exposures.
    So, in 1996 the EPA created the Endocrine Disruptor 
Screening and Testing Advisory Committee in response to a 
congressional mandate, and the EPA was directed to develop a 
screening program to determine whether certain substances may 
have endocrine disrupting effects. This was supposed to be 
implemented by 1999. I served on that Advisory Committee, and 
we delivered consensus recommendations by the statutory 
deadline in 1998.
    Unfortunately, thereafter EPA missed deadline after 
deadline and became bogged down in an endless set of validation 
exercises that remain unfinished today. Meanwhile, thousands of 
chemicals in consumer products, food, water and air have not 
been tested for endocrine disrupting properties.
    Recently, the Endocrine Society, the American Medical 
Association and the American Chemical Society have called for 
reducing exposure to endocrine disruptors as well as more rapid 
advancement of the screening program. Sadly, the EPA is a 
decade late, and we are still waiting.
    My concerns about human exposures to commonly encountered 
chemicals are not limited, however, to endocrine disruptors. As 
we have also heard flaws in the Toxic Substances Control Act 
have allowed thousands of untested chemicals to remain in 
commerce with limited or no toxicity information.
    A second example is the failure of EPA to require adequate 
evaluation of the impact of pesticides and other chemicals on 
brain development. The agency has the authority to require 
those data from pesticide registrants but historically has been 
reluctant.
    In the 1990s, the EPA finally asked for developmental 
neurotoxicity testing of a group of pesticides called 
organophosphates, which are notoriously toxic to the brain. But 
if we thought that we were finally going to see more regular 
requirements for this information we were sadly disappointed in 
2007 when EPA registered the fumigant methyl iodide for use 
without it. This chemical is an extremely toxic chemical. It 
causes severe nervous system toxicity in adults who are 
accidentally exposed. Unfortunately, effects on the developing 
brain have never been studied.
    In my written testimony I have described why I and others 
believe we must be concerned. EPA's rationale for not requiring 
the data on this pesticide is based on an untested hypothesis 
for which there is little evidence.
    The Department of Pesticide Regulation in California 
carried out its own risk assessment of methyl iodide and set it 
out for external review by a scientific review committee. In 
its final report that committee not only expressed concern 
about the likelihood of human exposure when this chemical is 
used in agriculture but also said--and I am quoting--an equally 
important element in our review was the data that we would have 
wished to assess but that was insufficient or nonexistent 
altogether. The lacunae in our knowledge about methyl iodide 
are particularly wide and deep in relation to key aspects of 
its potential toxicity such as neurodevelopmental effects. That 
is the end of the quote.
    Wide and deep data gaps with respect to this chemical's 
effect on the developing brain. Yet the EPA registered it for 
use.
    So, in conclusion, some efforts to protect children's 
health that were taking hold seem to have slowed and even been 
abandoned. Developing children continue to be exposed to 
environmental chemicals without adequate safety assessment, 
many of these under the authority of the EPA. Meaningful TSCA 
reform and EPA's exercise of its existing authority are 
essential in order to protect developing children--and really 
people of all ages--from the impacts of exposure to hazardous 
chemicals.
    Thank you, Madam Chair.
    [The prepared statement of Dr. Schettler follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Senator Klobuchar. Thank you very much. And thank you for 
sort of bringing this down to the real world level and the kids 
that you deal with in your work. I was listening to this 
thinking of--I had not related this, but of my own experience 
when my daughter was born. She could not swallow for a year and 
a half, and no one could figure out what was wrong. We still do 
not know what was wrong. She somehow snapped out of it after 
being on a feeding tube, and I spent many weeks in the 
neonatology unit and things like that.
    When I look back on that time now, because she is an 
amazing kid and she has no permanent thing, there was nothing 
genetic, I always think about time is a gift. One, it gave me a 
sense of what parents with kids with disabilities go through. 
But two, it made me always wonder was I exposed to something 
when I was pregnant? What happened? How did this happen? And 
how did she suddenly snap out of it when it was not a permanent 
problem?
    I know a lot of parents dealing with kids with autism and 
other things that just daily wonder the same thing as we see 
these sudden increases in certain diseases and do not know what 
they are. That is one of the things that drive so many families 
to want to see that research and just feeling so alone out 
there, you know, surfing the Internet, coming up with theories 
that make no sense because they read them on a blog, when we 
should be looking at these scientifically, and we should be 
getting the data collected.
    So, I want to tell you how I know that I and so many 
families share that frustration that we are not getting the 
data, Dr. Schettler, that you are talking about.
    So my question, first of all, is how do you think, in the 
ideal world, this Interagency Task Force could work to try to 
better share things? And what do you think, as we look at, you 
know, difficult budget times for Government, what do you think 
the most cost effective way and where should our focus really 
be as we look at all the myriad of potential problems we have 
here?
    I know those are two big questions. The first would be how 
the Interagency Task Force could be better coordinated, and I 
guess the second would be how we could do this most cost 
efficiently and what our focus should be.
    I guess, Dr. Bearer, that I will begin with you because I 
mentioned you. You can all three answer it.
    Dr. Bearer. Thank you. I see the Interagency Task Force as 
being able to link across agencies various pockets of pediatric 
environmental health. For example the biomonitoring programs at 
CDC to be linked to EPA's list of priorities for chemicals that 
need to be studied, to the NIH where research dollars need to 
be spent in order to assess the toxicity of the chemicals.
    I also see it as a clearinghouse for research and 
initiatives of what is actually going on right now. There is no 
place where you can go to find out what research is actually 
being done. And I see the Interagency Task Force as being 
important in collecting and organizing and making publicly 
available what research is actually happening.
    Senator Klobuchar. Thank you.
    Dr. Solomon.
    Dr. Solomon. In addition to coordinating with agencies such 
as CDC for chemicals that are in food contact materials and in 
consumer products, such as known endocrine disrupters like 
bisphenol A and phthalates, we are finding that FDA and CPSC 
have very major regulatory roles and yet often do not have the 
same toxicologic approach or expertise in those chemical areas 
as EPA.
    And it is really important also to have consistency. We saw 
this as a problem when EPA and FDA were publicly disagreeing a 
number of years ago about levels of mercury that are safe for 
women of reproductive age, and very recently FDA, EPA and NIEHS 
sort of came together around bisphenol A, and they are trying 
to come to a common ground. So, it is very, very important to 
avoid conflicting standards or conflicting messages to the 
public as well.
    But I also think in terms of priorities, you know, all 
three of us mentioned chemical policy reform. It really is a 
huge, huge issue----
    Senator Klobuchar. You are talking about TSCA?
    Dr. Solomon. Yes, TSCA is the main issue area where we are 
dealing with both enormous data gaps that impair all of us as 
physicians from being able to provide information to patients 
and communities and also the problem that EPA does not have the 
authority it needs to take regulatory action even when there is 
evidence showing harm to developing organisms and children.
    Senator Klobuchar. When you think about all the new 
products and changes in our society and the fact that it has 
not been updated for so long, it clearly cries out for some 
changes.
    Dr. Solomon. Exactly. The science has moved forward; there 
is a lot of information from the National Academy of Sciences 
to go with, and that really is something that needs action 
soon.
    Senator Klobuchar. OK.
    Dr. Schettler.
    Dr. Schettler. I would agree with the need for coordination 
across the agencies and do not have more to add to that. It is 
important that we not sort of Balkanize this and fail to look 
at it comprehensively.
    With respect to the second question, the issue of cost 
effectiveness, I would agree first of all with the importance 
of TSCA reform, and some of the elements of that have to 
include that chemical manufacturers need to be responsible for 
evaluating the safety of their products. I mean, this should 
not fall on the public to do that after the fact. So, it should 
be, you know, pre-market testing is required. If you are going 
to stay on the market, we need safety data.
    But I also would like to add a little more to this idea of 
cost and benefits which came up in the first panel. We know 
that a lot of the childhood conditions that we are concerned 
about today are setting the stage for an overwhelming wave of 
disease and disability that is coming down, that is going to 
overwhelm us in the next several decades.
    As was pointed out in the first panel, childhood obesity 
itself is a risk factor for diabetes, cardiovascular disease, 
cognitive decline, dementia and Alzheimer's disease. And I am 
not certain what we are going to do about this. And at a time 
when we are talking about healthcare reform in this country we 
should be really looking at what is coming as we try to figure 
out primary preventive strategies to try to prevent this flood 
of chronic disease that is coming along.
    So when we are doing our cost-benefit analysis, let us look 
at the whole picture, and let us look at it over time and see 
how we are going to be dealing with that decades from now as 
well as in the shorter term. Thank you.
    Senator Klobuchar. Very good. Thank you.
    I just want to ask a few specific questions with some work 
that I am doing, legislation that we are working on. I 
mentioned formaldehyde. And there is a huge problem of some of 
these wood products coming over, primarily from overseas, 
because our own timber industry has agreed to some standards 
voluntarily. But yet we are seeing--there is the whole trailer 
issue down in Katrina and those things of formaldehyde in these 
woods.
    That is why Senator Crapo and I have a bill that basically 
follows the California Standards, Dr. Solomon. And I can tell 
you it was quite interesting to stand with our timber industry 
in Minnesota at a Home Depot where we were supporting this bill 
to take up the California standards nationally and having the 
industry people talking about how they wanted the California 
standards. You can bring that home with you.
    But because of the fact that these wood products are coming 
in with formaldehyde, and they are unfairly competing with our 
own American timber, that is actually in wood products that are 
actually abiding by these higher standards. I just wondered if 
any of you--and I do not expect all of you could comment on the 
formaldehyde issue with kids.
    Dr. Solomon. I am happy to comment because I have been in 
numerous of those FEMA trailers. I spent a lot of time in New 
Orleans after Katrina. I talked with families who lived in FEMA 
trailers for months or even years and heard first-hand from 
them about the symptoms that they were suffering from, ranging 
from increased rates of asthma to just constant nagging 
irritation of the upper airways and constant headaches. This 
would have been so preventable, so avoidable.
    I think that there is a broad concern about voluntary 
agreements that is raised by this issue because a voluntary 
agreement is good as long as everyone abides by it. But in this 
age of global commerce it is very hard to get the entire 
industry--especially internationally--on board.
    We are seeing that more recently with the flame retardants 
where there have been voluntary agreements with U.S. 
manufacturers of these polybrominated diphenylether flame 
retardants, PBDEs, to take them off the market. But I 
personally am very concerned that we are going to still be 
seeing them in imports from other countries. So this is why 
Congress needs to take action and why EPA also needs to take 
regulatory action and not count on voluntary agreements to 
protect the public.
    Senator Klobuchar. Right.
    Cadmium in jewelry, speaking of imports, anyone have any 
familiarity with that the effect on kids? No one? OK. That is 
all right. I think I have asked the EPA about this in the past, 
so I appreciate that.
    Other things that we have been working on are radon and the 
effect on children of that. We are putting together a bill in 
that area. And then, as you know, Senator Boxer has been a 
leader on perchlorate monitoring and the Right to Know Act and 
has done a lot in that area.
    So, there are a lot of specific things that we are working 
on that I cannot help but think cry out for action about having 
this Interagency Task Force where we are drawing these 
resources together, as you say, for research, which will really 
help us in Congress so that when we move ahead in one area, we 
are not just doing one little thing, maybe we should be doing 
three things at the same time. I think it will be very helpful 
if we could get that Task Force going.
    Is there anything anyone else would like to add today?
    Dr. Schettler. I would like to add one more comment. Thank 
you for the opportunity.
    As I listened to the discussion about perchlorate and about 
formaldehyde and air pollution I think it is important for us 
to keep in mind that we are not exposed to these various 
contaminants one at a time, but we are exposed to mixtures. And 
it occurs in a social and an economic environment which may 
cause either more or less vulnerability. This is all fairly 
well outlined in the National Academy of Sciences' report on 
science and decisions. But these are very real issues.
    So, people are not just exposed to perchlorate. In farming 
communities, for example, there is going to be nitrate in the 
water at the same time. There may be women who have inadequate 
iodine intake in their diet. Thirty percent of women in the 
United States are estimated to have suboptimal intakes of 
dietary iodine, making them more susceptible to the effects of 
perchlorate and nitrate in terms of being able to produce 
enough thyroid hormone for their baby to develop in utero. So, 
we need to think about these things collectively.
    Similarly, children who are exposed to formaldehyde and air 
pollution who also happen to be living in suboptimal 
socioeconomic environments are more likely to develop asthma as 
a result of those exposures because the social environment 
creates vulnerability.
    So, these do need to be looked at through sort of this 
interagency comprehensive approach that will recognize that 
there are vulnerable populations of people among the general 
population who do need to be protected.
    Thank you.
    Senator Klobuchar. All right. Thank you.
    Dr. Solomon. We usually do not do this at the end, but you 
know, you are up here, and it is just me, so add your final 
comments here.
    Dr. Solomon. Thank you for the opportunity for a final 
comment.
    I have served on a number of EPA advisory committees over 
the years, including the Drinking Water Committee, and have 
been frustrated at how long it takes from the time when there 
is enough scientific information to take action to when action 
actually occurs. And perchlorate is an excellent example of a 
chemical that has been under study for well over a decade and 
where there is extremely strong information about exactly what 
it does in the human body and enough data, even in humans, on 
which to take action. And yet this chemical has not been 
regulated yet.
    I have seen the same thing with numerous industrial 
chemicals. It was a decade ago that the Science Advisory Board 
reviewed the trichloroethylene risk assessment and recommended 
that it be finalized as soon as possible. But a decade has 
passed, and it is now undergoing another round of review.
    That is the type of pattern that tends to occur, and one of 
the things that will be important with TSCA reform will be to 
get out of that endless loop of repetitive, interminable risk 
assessments. We certainly also saw it with dioxin, another 
ongoing example.
    So, EPA really does need not only the authority but in fact 
the responsibility to take rapid action when there is 
information, scientific evidence, showing harm to children's 
health.
    Senator Klobuchar. OK. Thank you.
    Dr. Bearer. I would really like to say that I think the 
National Children's Study should go forward to generate some of 
this data because not only has Dr. Schettler noted that we are 
exposed to mixtures, but we are exposed over time. And with 
children that can be important for setting them up to future 
vulnerability following a previous chemical exposure.
    So, until we understand this complex play of determinants 
on our health but occurring over time in our children I do not 
think we will have a good idea of what is actually impacting 
our health.
    Senator Klobuchar. OK.
    Well thank you, all of you. This has been very 
enlightening, and I think you have seen a number of Senators 
that came by today who are similarly devoted to moving forward 
on this. I know the EPA is, and I appreciate the GAO work as 
well in looking at this and stepping back and looking at how we 
can do better.
    I wanted to note that Senator Boxer, I think she talked to 
me about this hearing five times in the last 24 hours. She 
really had wanted to be here and cares a lot about this. She 
has been a true leader on this issue. She even caught me in the 
hallway and said you are going to be 5 minutes late. She would 
be here, but as you know there is a lot going on right now in 
the U.S. Senate, and so she was needed elsewhere to work on 
some very time sensitive issues. I know she wanted to be 
specifically here to greet you, Dr. Solomon.
    I am going to put her statement on the record and also the 
GAO report on Environmental Threats to Children, as well as the 
EPA's 1996 National Agenda on Children's Health. So, without 
objection, those things will be included in the record.
    And we look forward to working with all of you this 
important issue as we go ahead.
    Thank you very much, and the hearing is adjourned.
    [Whereupon, at 12:05 p.m. the full Committee was 
adjourned.]
    [Additional statements submitted for the record follow:]

                   Statement of Hon. Barbara Boxer, 
               U.S. Senator from the State of California

    Children are more vulnerable to toxic pollution than 
adults. Their bodies are developing rapidly--including their 
brains, hearts and lungs, their nervous and immune systems--so 
exposures to toxic chemicals at critical times in their 
development can have lifelong impacts.
    That's why I wrote the law that ensures that the EPA takes 
children and other vulnerable populations, such as pregnant 
women and the elderly, into account when setting drinking water 
standards, not just healthy adult men.
    And that is why I asked the Government Accountability 
Office (GAO) to investigate the EPA's role in protecting 
children's health and to give me a report card on how the 
Federal Government is doing in keeping our children safe from 
environmental dangers.
    As the GAO has said in its report, ``Children face 
disproportionate health risks from environmental contaminants 
such as pollution in air, lead paint in homes, pesticide 
residues on food, and treatment resistant microbes in drinking 
water. Such hazards contribute to asthma, cancer, 
neurodevelopmental disorders, and other diseases, and many of 
the Nation's 74 million children are exposed to them daily.''
    Senator Klobuchar joined me in this request as Chair of 
this Committee's Subcommittee on Children's Health. Today we 
are releasing GAO's final report, the culmination of an in-
depth 2-year investigation. Based on GAO's report I am very 
concerned that EPA has not followed through on its initial 
commitment in the late 1990s to make children a priority with 
the creation of the Office of Children's Health and other steps 
designed to put kids first.
    The GAO report paints a clear picture:
    First, the GAO found that EPA has not focused attention on 
children's health in agency-wide priorities, strategies, and 
rulemakings.
    GAO also found that EPA has not fully utilized its Office 
of Children's Health Protection and other child-focused 
resources.
    At the same time, GAO concluded that opportunities exist 
for EPA to lead and coordinate national efforts to protect 
children from environmental threats. The current Administration 
has begun the task of returning the focus to children as a 
central mission of the agency. I applaud these efforts, but 
there is much more work to do.
    I am working on a bill with Senator Klobuchar that would 
authorize an interagency task force geared toward protecting 
children's health from environmental threats. This task force 
was originally put in place by President Clinton in an 
Executive Order, but the task force lapsed, and we want to make 
sure that the work of this important group is made permanent.
    I am also working with Senator Bill Nelson, who is here to 
testify today, on legislation to strengthen the EPA role in 
investigating cancer, birth defects, and other disease clusters 
that may be associated with environmental toxins.
    Communities that experience unusual increases in birth 
defects, cancers and other diseases, especially in children, 
should get more help from the Federal Government, including 
EPA, in getting to the root of the problem. In my home State we 
have a community in Kettleman City that is working with the 
State of California to investigate the reason for the level of 
birth defects, and Senator Nelson will talk about a community 
in Florida and their efforts to determine the cause of the 
childhood brain cancers being experienced there. Senator Nelson 
and I would like to make sure these communities and others like 
them around the country can get the help they need so they can 
get answers quickly.
    The goal of this oversight hearing today, as well as the 
legislative efforts we have underway, is very straightforward. 
Protecting children's health must be central to EPA's mission 
across the board, and the Agency must specifically remedy the 
deficiencies identified by the GAO when it comes to this 
critical issue. Our legislative efforts are designed to 
accomplish the same thing--to ensure the health and safety of 
children in communities across the country.

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    I am a father and grandfather, so obviously protecting the 
health of children, born and unborn, is a personal priority. 
The best way to protect children's health is to use the best 
available science to properly assess risk. In some cases, 
children can be more susceptible, in other cases less 
susceptible, and in many cases equally susceptible to 
environmental exposures when compared to adults. On a body 
weight basis children can have greater exposure than adults, 
but not always. EPA takes these susceptibility differentials 
into account when assessing potential risks to children.
    This follow up GAO investigation into efforts to protect 
children's health suggests to us, among other things, that the 
Agency has not fully used the Office of Children's Health 
Protection and has not prioritized children's health 
considerations in light of advisory recommendations.
    However, what the report does not fully address is the fact 
that EPA must always balance recommendations on children's 
health with objective scientific standards, legal requirements, 
and practical realities. For instance we have been told that 
EPA should incorporate more of the recommendations of 
children's health advisory groups into Agency actions. But 
advisory groups do not have to base their recommendations on 
risk: they can base their opinion on the use of precaution. 
They do not have to balance economic impacts and resource 
limitations: Federal agencies do. And advisory groups almost 
never address whether the Federal Government should be or 
actually is authorized to regulate all issues suggested by 
their recommendations.
    So, while EPA always takes advisory recommendations very 
seriously the Agency must independently review advisory 
findings and balance these opinions with the other factors that 
direct rulemaking and guide policy management.
    Elements of GAO's report are instructive, and I look 
forward to hearing more. I especially agree with the report's 
favorable view of the National Children's Study. The National 
Children's Study will fortify the Government's commitment to 
the health and well-being of children--bringing together the 
top experts on children's health and the environment. The Study 
is the largest long-term study of environmental and genetic 
influences on children's health ever conducted in the United 
States. It will follow 100,000 children from before birth to 
age 21. Researchers will better understand how children's 
interactions with their environments affect their health and 
development.
    But in contrast to what some of the witnesses will say 
today I do not believe that EPA needs additional congressional 
authority to specifically protect children's health. Rather I 
believe that EPA has the existing authority and processes in 
place to build upon ongoing Federal efforts to properly protect 
children's health. That said, I look forward to hearing your 
perspectives and welcome you to the Committee.

                     Statement of Hon. Max Baucus, 
                 U.S. Senator from the State of Montana

    Madam Chairman, I want to take a few moments to talk about 
the health of the children of Libby, Montana, and to engage EPA 
officials today on this important topic. Libby is a beautiful 
little town in northwestern Montana. Libby is also a place 
where EPA has found asbestos contamination so pervasive--and 
the conditions so severe--that it warranted the declaration of 
a ``public health emergency.'' The type of asbestos in Libby 
known as tremolite is particularly deadly. Tremolite fibers 
quickly find their way into victims' lungs and stay there. It's 
like a time bomb waiting to strike.
    The effect of asbestos poisoning on Libby residents has 
been severe. Hundreds of people have grown sick and died due to 
the pervasive presence of asbestos spewed from the vermiculite 
mining and milling operations of W.R. Grace. Today we know that 
291 people have died in Libby from asbestos exposure. That's 
291 deaths in a community of just over 2,600 people. Lincoln 
County, Montana, home to Libby, has the highest age adjusted 
death rate due to asbestosis in the entire Nation.
    I am in regular contact with the victims. Recently, I was 
written by a 55-year-old Libby resident, sick from asbestosis, 
with one concern--the long-term health of his grandchild:
    ``[A]t 55 and dying, I have been blessed, with a grandson, 
just 10 months old . . . I never knew I could love so much 
especially when I know my time is short. My grandson is the 
lifeline that is left from three generations of life/blood line 
that moved to a place so beautiful and God Given that no one 
would have guessed the monster that lie silent in the air and 
water and soil and lands in the lungs of all who breathe . . . 
what I take with me is knowing in my heart that Libby, Montana, 
killed my parents and killed me and killed my children. Libby 
will not kill my grandson.''
    We cannot allow this story to repeat itself. We cannot 
allow today's children to be told years from now, as this Libby 
resident was told, that their life is over. The asbestos in 
Libby has exacted an immeasurable toll on the parents of this 
generation. We cannot allow this to continue in our 
grandchildren.
    So, as the current generation of Libby residents--through 
no fault of their own--suffers the horrible effects of this 
deadly poison, I am continuing my long standing efforts to be 
sure that EPA is taking every step possible to ensure that the 
clean up of Libby moves forward expeditiously and is based on 
accurate risk assessments for the unique type of asbestos in 
Libby. Today my question is--is EPA doing enough to ensure that 
the children in Libby, Montana, are protected from asbestos 
exposure? It would be unforgivable and tragic to create another 
generation of victims in Libby by failing to take every 
imaginable step to prevent their exposure to this known 
asbestos contamination.
    The long-term health of the children of Libby should be our 
focus. We should act with an abundance of caution when making 
decisions that impact them. But ensuring their protection is 
not a one size fits all proposition. The existing EPA risk 
assessment procedures and existing science may not be adequate 
to address the special impacts of childhood exposures to 
asbestos. The multiple exposure pathways and the long-term 
consequences of cumulative exposures may need special focused 
attention. The comparisons of existing data on childhood 
exposures at other Superfund sites may not be applicable to the 
Libby. It is critical that the latest advancements in science, 
law and policy of children's health are integrated into the 
clean up decisions that directly impact the Libby community. 
EPA should redouble its efforts to address these special 
circumstances.
    Today's GAO report identifies opportunities for greater 
focus, direction, and high level commitment to children's 
health at EPA. The report is critical of EPA's failure to 
institutionalize children's health issues into the overall 
activities of the Agency. However the report does identify the 
potential to start to get things right with the appointment of 
a permanent, stable and long-term office Director.
    Therefore, today, the people of Libby want EPA's assurance 
that we are doing everything we can to protect the children of 
Libby. The people of Libby want EPA's assurance that the 
schools and playgrounds that we send our children to every day 
are safe. The people of Libby want EPA's assurance that its 
clean up assumptions and its policy of ``allowable'' and 
``acceptable'' childhood exposure to asbestos will not create 
another generation of victims at Libby.
    This assurance cannot come only from the clean up managers 
at EPA. It needs to come from the person in the Agency whose 
job it is to be the advocate for children's health--that is 
you, Mr. Grevatt.
    I am asking you to join me in keeping the promise and 
fulfilling the long-term commitment that we have made to the 
people and particularly the children of Libby, Montana. We owe 
it to the next generation.
    I thank our distinguished panel, and I look forward to your 
response.

    [The referenced information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
       
                                 [all]
</pre></body></html>
